                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS



                                   Final Audit Report

  Subject:




               AUDIT OF INFORMATION SYSTEMS
            GENERAL AND APPLICATION CONTROLS AT
                       WELLPOINT INC.


                                            Report No. 1A-10-00-13-012

                                            Date:                September 10,2013




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report



              FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                           CONTRACT CS 1039
                                                   WELLPOINT INC.
                                                 PLAN CODES 10 / 11
                                               ROANOKE, VIRGINIA



                                          Report No. 1A-10-00-13-012
                                                              September 10, 2013
                                          Date:




                                                                                             ________________________
                                                                                             Michael R. Esser
                                                                                             Assistant Inspector General
                                                                                               for Audits


                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary



          FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                       CONTRACT CS 1039
                                     WELLPOINT INC.
                                    PLAN CODES 10 / 11
                                  ROANOKE, VIRGINIA



                               Report No. 1A-10-00-13-012
                                              September 10,2013
                               Date:


This final report discusses the results of our audit of general and application controls over the
information systems at WellPoint Inc. (WellPoint or Plan).

Our audit focused on the claims processing applications used to adjudicate Federal Employees
Health Benefits Program (FEHBP) claims for WellPoint, as well as the various processes and
information technology (IT) systems used to support these applications. We documented
controls in place and opportunities for improvement in each of the areas below.

Security Management
WellPoint has established a series of IT policies and procedures to create an awareness of IT
security at the Plan. We also verified that WellPoint has adequate human resources policies
related to the security aspects of hiring, training, transferring, and terminating employees.

Access Controls
WellPoint has implemented numerous controls to grant and remove physical access to its data
center, as well as logical controls to protect sensitive information. However, the physical access
controls to one specific facility visited by auditors could be improved. We also noted
weaknesses in WellPoint’s implementation of segregation of duties and privileged user
monitoring.




                                                  i
Network Security
WellPoint has implemented a thorough incident response and network security program.
However, we noted several opportunities for improvement related to WellPoint’s network
security controls. WellPoint has not implemented technical controls to prevent rogue devices
from connecting to its network. Also, several specific servers containing Federal data are not
subject to routine vulnerability scanning, and we could not obtain evidence indicating that these
servers have ever been subject to a vulnerability scan. In addition, WellPoint limited our ability
to perform adequate testing in this area of the audit. As a result of this scope limitation and
WellPoint’s inability to provide additional supporting documentation, we are unable to
independently attest that WellPoint’s computer servers maintain a secure configuration.

Configuration Management
WellPoint has developed formal policies and procedures that provide guidance to ensure that
system software is appropriately configured and updated, as well as for controlling system
software configuration changes. However, we noted that WellPoint’s mainframe password
settings are not in compliance with its own corporate standards.

Contingency Planning
We reviewed WellPoint’s business continuity plans and concluded that they contained the key
elements suggested by relevant guidance and publications. We also determined that these
documents are reviewed and updated on a periodic basis.

Claims Adjudication
WellPoint has implemented many controls in its claims adjudication process to ensure that
FEHBP claims are processed accurately. However, we noted several weaknesses in WellPoint’s
claims application controls. Additionally, there is no auditing to ensure the manual process for
debarring providers is done appropriately.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that WellPoint is not in compliance with
the HIPAA security, privacy, and national provider identifier regulations.




                                                 ii
                                                                Contents
                                                                                                                                            Page
Executive Summary ......................................................................................................................... i
I. Introduction ................................................................................................................................ 1
    Background ................................................................................................................................ 1
    Objectives ................................................................................................................................... 1
    Scope .......................................................................................................................................... 1
    Methodology .............................................................................................................................. 2
    Compliance with Laws and Regulations .................................................................................... 3
II. Audit Findings and Recommendations ...................................................................................... 4
    A. Security Management ........................................................................................................... 4
    B. Access Controls .................................................................................................................... 4
    C. Network Security .................................................................................................................. 7
    D. Configuration Management ................................................................................................ 11
    E. Contingency Planning ......................................................................................................... 12
    F. Claims Adjudication............................................................................................................ 12
    G. Health Insurance Portability and Accountability Act ......................................................... 15
III. Major Contributors to This Report ......................................................................................... 17
     Appendix: WellPoint’s June 14, 2013 response to the draft audit report issued April 10, 2013.
                                       I. Introduction

This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by WellPoint Inc. (WellPoint or
Plan).

The audit was conducted pursuant to FEHBP contract CS 1039; 5 U.S.C. Chapter 89; and 5 Code
of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S. Office
of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our second audit of WellPoint’s general and application controls. The first audit was
conducted in 2006, and all recommendations from that audit were closed prior to the start of the
current audit. We also reviewed WellPoint’s compliance with the Health Insurance Portability
and Accountability Act (HIPAA).

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in WellPoint’s IT environment.
We accomplished these objectives by reviewing the following areas:
 •   Security management;
 •   Access controls;
 •   Network security;
 •   Configuration management;
 •   Segregation of duties;
 •   Contingency planning;
 •   Application controls specific to WellPoint’s claims processing systems; and
 •   HIPAA compliance.

Scope
We obtained an understanding of WellPoint’s internal controls through interviews and
observations, as well as inspection of various documents, including information technology and
other related organizational policies and procedures. This understanding of WellPoint’s internal
controls was used in planning the audit by determining the extent of compliance testing and other


                                                  1
auditing procedures necessary to verify that the internal controls were properly designed, placed
in operation, and effective.

The scope of this audit centered on the information systems used by WellPoint to process
medical insurance claims for FEHBP members in the following states: Virginia, Connecticut,
New Hampshire, Maine, Ohio, Kentucky, Indiana, Missouri, Wisconsin, Nevada, Colorado, and
California (institutional only). The business processes reviewed are primarily located in
WellPoint’s facilities in Virginia. We also toured WellPoint’s primary data center located in
Missouri.

The on-site portion of this audit was performed in January and February of 2013. We completed
additional audit work before and after the on-site visit at our office in Washington, D.C. The
findings, recommendations, and conclusions outlined in this report are based on the status of
information system general and application controls in place at WellPoint as of March 2013.

This performance audit was conducted in accordance with generally accepted government
auditing standards (GAS) issued by the Comptroller General of the United States, except for
specific applicable requirements that were not followed. There was one element of our audit in
which WellPoint applied external interference with the application of audit procedures, resulting
in our inability to fully comply with the GAS requirement of independence.

We routinely use our own automated tools to evaluate the configuration of a sample of computer
servers. When we requested to conduct this test at WellPoint, we were informed that a corporate
policy prohibited external entities from connecting to the WellPoint network. In an effort to
meet our audit objective, we attempted to obtain additional information from WellPoint, but the
Plan was unable to provide satisfactory evidence that it has ever had a program in place to
routinely monitor the configuration of its servers (see the “Configuration Compliance Auditing”
section on page 9 for additional details.)

As a result of the scope limitation on our audit work and WellPoint’s inability to provide
additional supporting documentation, we are unable to independently attest that WellPoint’s
computer servers maintain a secure configuration.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
WellPoint. Due to time constraints, we did not verify the reliability of the data used to complete
some of our audit steps but we determined that it was adequate to achieve our audit objectives.
However, when our objective was to assess computer-generated data, we completed audit steps
necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this review we:
•   Gathered documentation and conducted interviews;
•   Reviewed WellPoint’s business structure and environment;
•   Performed a risk assessment of WellPoint’s information systems environment and
    applications, and prepared an audit program based on the assessment and the Government


                                                2
    Accountability Office’s (GAO) Federal Information System Controls Audit Manual
    (FISCAM); and
•   Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, we used judgmental sampling in
    completing our compliance testing.

Various laws, regulations, and industry standards were used as a guide to evaluate WellPoint’s
control structure. These criteria include, but are not limited to, the following publications:
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30 Revision 1, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems;
•   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether WellPoint’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
WellPoint was not in complete compliance with all standards as described in the “Audit Findings
and Recommendations” section of this report.




                                                3
                      II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of WellPoint’s overall IT security controls. We evaluated
  WellPoint’s ability to develop security policies, manage risk, assign security-related
  responsibility, and monitor the effectiveness of various system-related controls.

  WellPoint has implemented a series of formal policies and procedures that comprise its security
  management program. WellPoint’s Chief Information Security Officer owns the Information
  Security Program and is responsible for developing, implementing, and enforcing the program’s
  standards. WellPoint has also developed a thorough risk management methodology, and has
  procedures to document, track, and mitigate or accept identified risks. We also reviewed
  WellPoint’s human resources policies and procedures related to hiring, training, transferring, and
  terminating employees.

  Nothing came to our attention to indicate that WellPoint does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and techniques used to prevent or detect
  unauthorized physical or logical access to sensitive resources.

  We examined the physical access controls of WellPoint’s facilities in St. Louis, Missouri and
  Roanoke, Virginia. We also examined the logical access controls protecting sensitive data on
  WellPoint’s network environment and claims processing related applications.

  The access controls observed during this audit include, but are not limited to:
  •   Procedures for appropriately granting physical access to facilities and data centers;
  •   Procedures for revoking access to data centers for terminated employees;
  •   Procedures for removing Windows/network access for terminated employees; and
  •   Controls to monitor and filter email and Internet activity.

  The following sections document several opportunities for improvement related to WellPoint’s
  physical and logical access controls.

  1. Privileged User Monitoring
      WellPoint has configured its servers to record the activity of privileged users (i.e., system
      administrators). However, the event logs generated by these servers are only reviewed
      retroactively if a problem has been reported or detected.

      NIST SP 800-53 Revision 3 requires that an organization “Reviews and analyzes information
      system audit records . . . for indications of inappropriate or unusual activity, and reports
      findings to designated organizational officials….”

                                                    4
   Failure to routinely review elevated user activity increases the risk that malicious activity
   could go undetected and sensitive information could be compromised.

   Recommendation 1
   We recommend that WellPoint implement a process to routinely review elevated user
   (administrator) activity.

   WellPoint Response:
   “The Plan stated that Management is in the process of implementing an automated
   monitoring program for privileged user access. The workflow process includes:

   •   Automated 24X7 protected logging of ‘events of interest’ for the WellPoint mainframe,
       Unix and Intel environments;

   •   Monitoring of WellPoint’s environment to audit and validate events that are triggered
       by HIPAA-compliant auditing and logging (monitoring) criteria;

   •   Integrating and leveraging of IBM’s Security Intelligence portfolio, QRadar, within
       the e-SIEM workflow, and WellPoint’s change management system; and

   •   Implementation of the monitoring tools will be implemented by year-end 2013, with
       auditing and validation processes fully implemented by September 30, 2014.”

   OIG Reply:
   As part of the audit resolution process, we recommend that WellPoint provide OPM’s
   Healthcare and Insurance office (HIO) with evidence that a process to routinely review
   elevated user activity has been implemented.

2. Segregation of Duties
   WellPoint does not have a documented process to ensure proper segregation of duties in its
   Streamline claims adjudication application.

   WellPoint uses role-based access control to grant access to Streamline, and many employees
   are granted multiple roles as they gain experience in their job function. However, there is no
   documented policy or procedure to indicate which roles would create a conflict (i.e., too
   much control over the claims adjudication process) if granted to the same individual.

   FISCAM states that “Work responsibilities should be segregated so that one individual does
   not control critical stages of a process.” FISCAM also states that “Management should have
   analyzed operations and identified incompatible duties that are then segregated through
   policies and organizational divisions.”




                                                 5
   Failure to enforce adequate segregation of duties in the claims processing application
   increases the risk that erroneous or fraudulent claims could be processed.

   Recommendation 2
   We recommend that WellPoint implement a process for ensuring Streamline application
   access is granted with proper segregation of duties.

   WellPoint Response:
   “The Plan stated that job titles are utilized for granting security for associates. The three
   Attachments… include the matrix and procedures for granting security access that
   demonstrates the changes made to enhance this process.”

   OIG Reply:
   The evidence provided by WellPoint in response to the draft audit report indicates that the
   Plan has implemented a process to ensure access to Streamline is granted with proper
   segregation of duties; no further action is required.

3. Facility Physical Access Controls
   The physical access controls at one of WellPoint’s facilities in Virginia could be improved.

   The facility uses an electronic card reader to control access to the building. However, we
   observed numerous occasions when the door was propped open for deliveries and people
   walked through the door without badging in or being checked by the security guard(s)
   stationed nearby.

   In addition, WellPoint does not have physical access controls in place to prevent employees
   from piggybacking into secure areas (one person using an electronic access card to open a
   door, then holding that door open while others enter). FISCAM states that “Physical controls
   at entrances and exits vary, but may include[:] manual door locks or cipher key locks,
   magnetic door locks that require the use of electronic keycards, biometrics authentication,
   security guards, photo IDs, entry logs, and electronic and visual surveillance systems.”

   In addition, NIST SP 800-53 provides guidance for adequately controlling physical access to
   information systems containing sensitive data (see control PE-3, Physical Access Control).

   Failure to implement adequate physical access controls increases the risk that unauthorized
   individuals can gain access to WellPoint facilities and the sensitive IT resources and
   confidential data they contain.

   Recommendation 3
   We recommend that WellPoint reassess the physical access controls at its Roanoke, Virginia
   facility, and implement controls that will ensure proper physical security. At a minimum,
   WellPoint should add an alarm to the facility entrances that will detect a door left propped
   open.


                                                6
     WellPoint Response:
     “The Plan stated that the facility currently has an access control system in place that alerts
     security officers when a door is being held open. This system and functionality has been
     in place for several years. The facility is undergoing a security upgrade and will have a
     new system that will not only alert the onsite security officers of a door held open, but will
     also notify corporate security officers at the security command center located in the
     corporate headquarters building. This installation will be completed by June 30, 2013.
     Upon completion of the system upgrade, the site will meet the risk and threat based
     standards developed for all sites across the enterprise.”

     OIG Reply:
     As part of the audit resolution process, we recommend that WellPoint provide OPM's HIO
     with evidence that the physical access security upgrades described in WellPoint’s response to
     the draft audit report have been implemented.

C. Network Security
  Network security includes the policies and controls used to prevent or monitor unauthorized
  access, misuse, modification, or denial of a computer network and network-accessible resources.

  WellPoint has implemented a thorough incident response and network security program.
  However, we noted several opportunities for improvement related to WellPoint’s network
  security controls.

  1. Preventing Rogue Devices
     WellPoint has not implemented technical controls to prevent rogue devices (laptops,
     workstations, or routers not issued by or approved by the company) from connecting to its
     network.

     NIST SP 800-53 Revision 3 states that information systems should uniquely identify and
     authenticate devices before establishing a connection. Failure to implement technical
     controls to detect rogue devices could allow anyone with physical access to WellPoint
     facilities to connect an unauthorized device to WellPoint’s network. This risk is magnified
     by the relatively weak physical access controls observed at WellPoint’s Roanoke, VA
     facility.

     Recommendation 4
     We recommend that WellPoint implement technical controls to prevent rogue devices from
     connecting to its network.

     WellPoint Response:
     “The Plan stated that Management believes that the associated risk is adequately mitigated
     based upon the following controls:

     •   Authentication is required for all applications on our network.

                                                 7
   •   Direct wireless connectivity to the WellPoint network is prohibited.

   •   Policies:
          o Require training for all users, including annual employee certification.
          o State who is/isn't authorized to physically be on WellPoint premises to help
              protect both physical PHI (such as printed materials) and electronic PHI. Also,
              devices that can/can’t be connected to the WellPoint network are defined.
          o State that a visitor must be escorted throughout the facility. Visitors coming to
              our buildings are escorted while on the premises and WellPoint associates are
              responsible for monitoring the activities of their visitors.

   •   Controls are in place to enforce the physical security of our buildings, including
       guards, badge readers, cameras, etc. to help prevent unauthorized individuals from
       connecting rogue or unauthorized devices to the WellPoint network.

   •   See physical access changes being implemented for the Roanoke, Virginia building
       (Recommendation #3 response).

   WellPoint’s focus is on protecting the data. As outlined in the mitigating controls above,
   along with our robust security event monitoring and network security program, we believe
   that the risk has been adequately addressed. We continually monitor security exposures
   and have built layers of defense to protect data, and will continue to implement programs
   that have been proven effective.”

   OIG Reply:
   The controls described in WellPoint’s response to the draft audit report could prevent
   someone without authorized physical access to a WellPoint facility from connecting a device
   to the network. However, none of the controls would prevent someone with authorized
   access (e.g., employees, contractors, or guests) from connecting a personal device to the
   WellPoint network. Therefore, we continue to recommend that WellPoint implement
   technical controls to prevent rogue devices from connecting to its network.

2. Full Scope Vulnerability Scanning
   We conducted an extensive review of WellPoint’s computer server vulnerability management
   program to determine if adequate controls were in place to detect, track, and remediate
   vulnerabilities. We determined that WellPoint has a mature vulnerability management
   program and that the vast majority of devices are scanned on a routine basis. All detected
   vulnerabilities are analyzed, prioritized, and tracked to remediation.

   However, during our review we discovered that several specific servers containing Federal
   data are not subject to routine vulnerability scanning, and we could not obtain evidence
   indicating that these servers have ever been subject to a vulnerability scan. NIST SP 800-53
   Revision 3 states that the organization should scan “for vulnerabilities in the information
   system and hosted applications….”



                                               8
   Failure to perform full scope vulnerability scanning increases the risk that WellPoint’s
   systems are compromised and sensitive data stolen or destroyed.

   Recommendation 5
   We recommend that WellPoint ensure that vulnerability scanning is conducted on all servers,
   specifically the servers housing Federal data that are not currently part of WellPoint’s
   vulnerability management program.

   WellPoint Response:
   “The Plan stated that the only devices identified during the review that were not being
   scanned were desktop devices that:

   •   Do not contain FEP data, and are only used for additional computing power for tasks
       that are generally performed on user desktops.

   •   The Desktop Devices are being retired within the next 60 days. The Plan believes that it
       has demonstrated that it scans all servers that contain FEP data. WellPoint
       Information Security has processes in place to help ensure that newly provisioned
       servers are scanned and certified prior to production use, and are added to the
       scanning inventory that is used for conducting our periodic vulnerability scans. The
       Plan will continue to work to help ensure that our scanning inventory is kept up-to date
       and reflects the latest WellPoint server inventory.”

   OIG Reply:
   The fact that a specific server does not contain FEP data has no bearing on the importance of
   keeping the device secure when it operates in the same environment as other devices that do
   process FEP data. Any server not subject to routine scanning may contain a vulnerability
   that an attacker could exploit to gain access to the WellPoint network. Once on the network,
   it is much easier for the attacker to gain unauthorized access to FEP data. Therefore, we
   continue to recommend that WellPoint conduct vulnerability scanning on all servers.

3. Configuration Compliance Auditing
   Configuration compliance auditing refers to the process of routinely comparing the actual
   security configuration of computer servers to an approved baseline configuration. Our audit
   objective with regards to configuration compliance auditing is to determine whether the
   organization has a process in place to ensure that servers remain securely configured and up-
   to-date with security patches.

   In order to evaluate an FEHBP carrier’s configuration compliance auditing program, we
   typically use automated tools to document the actual configuration of a sample of servers.
   We then manually compare the results to the company’s approved baseline configuration.
   When the actual settings generally match the approved baseline, we gain confidence that the
   company’s servers are securely configured.




                                                9
When we requested to conduct this test at WellPoint, we were informed that a corporate
policy prohibited external entities from connecting to the WellPoint network. In an effort to
meet our audit objective, we attempted to obtain additional information about WellPoint’s
configuration compliance auditing program. We were initially provided a description of
what appeared to be a thorough configuration compliance auditing program at WellPoint.
However, when we requested documentation to support this description, WellPoint was
unable to provide any evidence that a configuration compliance auditing program had ever
been in place at the company.

Failure to implement a thorough configuration compliance auditing program increases the
risk that insecurely configured servers remain undetected, creating a potential gateway for
malicious virus and hacking activity that could lead to data breaches.

As a result of the scope limitation on our audit work and WellPoint’s inability to provide
additional supporting documentation, we are unable to independently attest that WellPoint’s
computer servers maintain a secure configuration.

Recommendation 6
We recommend that WellPoint implement a configuration compliance auditing program.

WellPoint Response:
“The Plan stated that its’ Vulnerability Management Program includes ongoing patching.
Security patches for high severity vulnerabilities are applied within 90 days on DMZ
servers and 180 days on internal servers. For the configuration management compliance
program, WellPoint is finalizing its transition to the Tivoli Endpoint Manager (TEM) tool
from the Blade Logic tool. The tool transition is scheduled to be complete by June 30,
2013, with the configuration management compliance program targeted to be fully
operational by October 31, 2013 for midrange and Intel servers.

The Plan’s contract with its outsource IT partner requires ongoing compliance to
WellPoint’s technical configuration standards (TCS). Variances to a TCS parameter
require a security exception to be formally approved. Governance over this outsourced
arrangement is provided through WellPoint’s configuration management compliance
program.”

OIG Reply:
During the fieldwork phase of the audit, WellPoint provided us with conflicting statements
regarding its plans to transition to Tivoli Endpoint Manager (TEM). These conflicting
statements along with WellPoint’s inability to provide evidence that it performs
configuration compliance scans ultimately led to us documenting a formal scope limitation.
As part of the audit resolution process, we recommend that WellPoint provide OPM’s HIO
with evidence that the TEM tool has been fully implemented, and that it is routinely
performing configuration compliance audits. OPM’s HIO should carefully scrutinize any
supporting documentation submitted by WellPoint related to this issue before considering
closure of this recommendation.


                                            10
D. Configuration Management
  We evaluated WellPoint’s controls to securely configure its mainframe, databases, and servers
  that support the applications used to process FEHBP claims. We determined that the following
  controls are in place:
  •   Controls for securely managing changes to the operating platform and claims processing
      application;
  •   Detailed operating system configuration standards; and
  •   Thorough patch management procedures.

  However, we discovered that WellPoint’s mainframe password settings are not in compliance
  with its own corporate standards.

  WellPoint has created Technical Configuration Standards (TCS) that outline approved
  configuration settings for server and mainframe security software. We reviewed the Technical
  Configuration Standards to determine if they conformed to industry best practices. We also
  compared the approved TCS settings to the actual settings of WellPoint’s servers and
  mainframes. We determined that the TCS were created in accordance with best practices.
  However, we found several mainframe security settings that were not in compliance with the
  TCS.

  Failure to configure password security settings in compliance with approved settings increases
  the risk that unauthorized users could gain access to sensitive resources.

  Recommendation 7
  We recommend that WellPoint modify its mainframe password settings to comply with its
  corporate policy.

  WellPoint Response:
  “The Plan stated that when Technical Configuration Standards (TCS) parameters are
  updated, a transition timeline is defined to comply with new or modified parameters for each
  LPAR. The audit team reviewed ACF TCS version 1.0 which reflected recent password setting
  updates to comply with HITRUST requirements, which the audit team noted as compliance
  gaps. Since the completion of the audit, the WellPoint security team has updated and
  published ACF TCS version 2.0.

  As of April 26, 2013, the password settings have been updated to comply with ACF TCS
  version 2.0, which was published on April 23, 2013. Procedures for the review process were
  documented….”

  OIG Reply:
  The evidence provided by WellPoint in response to the draft audit report indicates that the Plan
  has made system modifications to align the mainframe password settings with its corporate
  policy; no further action is required.


                                                 11
E. Contingency Planning
  We reviewed the following elements of WellPoint’s contingency planning program to determine
  whether controls were in place to prevent or minimize damage and interruptions to business
  operations when disastrous events occur:
  •   Business continuity plans for several business locations and data center operations;
  •   Disaster recovery plan for the claims processing system;
  •   Disaster recovery plan tests conducted in conjunction with the recovery site; and
  •   Emergency response procedures and training.

  We determined that WellPoint’s contingency planning documentation contained the critical
  elements suggested by NIST SP 800-34 Revision 1, “Contingency Planning Guide for Federal
  Information Systems.” WellPoint has identified and prioritized the systems and resources that
  are critical to business operations, and has developed detailed procedures to recover those
  systems and resources.

  Nothing came to our attention to indicate that WellPoint has not implemented adequate controls
  related to contingency planning.

F. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  WellPoint’s claims adjudication process.

  1. Application Configuration Management
      We evaluated the policies and procedures governing application development and change
      control of WellPoint’s claims processing systems.

      WellPoint has implemented policies and procedures related to application configuration
      management, and has adopted a system development life cycle methodology that IT
      personnel follow during routine software modifications. We observed the following controls
      related to testing and approvals of software modifications:
      •   WellPoint has adopted practices that allow modifications to be tracked throughout the
          change process;
      •   Code, unit, system, and quality testing are all conducted in accordance with industry
          standards; and
      •   WellPoint uses a business unit independent from the software developers to move the
          code between development and production environments to ensure adequate segregation
          of duties.

      Nothing came to our attention to indicate that WellPoint has not implemented adequate
      controls related to the application configuration management process.




                                                  12
2. Claims Processing System
   We evaluated the input, processing, and output controls associated with WellPoint’s claims
   processing system. We have determined the following controls are in place over WellPoint’s
   claims adjudication system:
   •   Routine audits are conducted on WellPoint’s front-end scanning vendor for incoming
       paper claims;
   •   Claims are monitored as they are processed through the systems with real time tracking
       of the system’s performance; and
   •   Claims output files are fully reconciled.

   Nothing came to our attention to indicate that WellPoint has not implemented adequate
   controls over the claims processing system.

3. Debarment
   WellPoint has adequate procedures for updating its claims system with debarred provider
   information, but it does not routinely audit its debarment database for accuracy.

   WellPoint receives the OPM OIG debarment list every month and compares the monthly
   changes to its internal provider file. Any debarred providers that appear in WellPoint’s
   provider database are flagged to prevent claims submitted by that provider from being
   processed by the claims processing system.

   However, this process is done manually, and WellPoint does not have an auditing process in
   place to ensure that all modifications are accurate and complete.

   Failure to audit the accuracy of the debarment file increases the risk that claims are being
   paid to providers that are debarred.

   Recommendation 8
   We recommend that WellPoint implement a process to routinely audit the provider file to
   ensure that all debarment related modifications are complete and accurate.

   WellPoint Response:
   “The Plan stated that based on the recommendation a new audit process was implemented
   effective June 1, 2013 to review the Debarred Provider Listings to ensure all debarment
   related modifications to the Provider Files are complete and accurate. Procedures for the
   review process were documented….”

   OIG Reply:
   The evidence provided by WellPoint in response to the draft audit report indicates that the
   Plan has created a procedure to audit modifications to the debarment file; no further action is
   required.




                                                13
4. Application Controls Testing
   We conducted a test on WellPoint ' s claims adjudication application to validate the system 's
   claims processing controls. The exercise involved processing test claims designed with
   inherent flaws and evaluating the manner in which WellPoint's system adj udicated the
   claims.

   Our test results indicate that the system has controls an d edits in place to identify the 

   fo llowing scenarios: 


   •   Invalid members and providers;
   •   Member eligibility;
   •   Gender;
   •   Timely filing; an d
   •   Catas trophic maximum.

   The sections below document opp01tunities for improvement related to WellPoint 's claims
   application controls.

   a. Provider/Procedure Inconsistency
       Two test claims were processed where a provider was paid for services outside the scope
       of th eir license.




       Recommendation 9
       We recommend that WellPoint ensure the appropriate system modifications ar e made to
       detect provider/procedure inconsistencies.

       Wel/Point Response:
       "The Plan stated that it made a request to p end claims with the sp ecific instance
       identified in the audit and this change should be complete within 60 days. We have
       also requested from the FEP Director's Office a listing ofproviders and the sp ecialties
       that are considered outside oftheir license. A request to p end claims with sp ecific
       criteria will be set up to stop each situation that is identified. The request for this wider


                                                  14 

          net will be dependent upon the identification ofproviders and specialties. Once
          identified, the necessary changes will be added to the system within 60 days."

          OIGReply:
          As part of th e audit resolution process, we recommend that WellPoint provide OPM's
          HIO with evidence that system modifications have been made to detect
          provider/procedure inconsistencies.

     b.




          Due to the potential fraudulent nature of this scenario, we expected the system to suspend
          th ese claims for fmther review; however no edit was generated by th e system . Failure to
          detect                        increases the risk that fraudulent or en oneous claims are
          paid.

          Recommendation 10
          We recommend that WellPoint ensure the appropriate system modifications ar e made to
          prevent            claims from processing without proper verification .

          WellPoint Response:
          "The Plan stated that it has requested that washznf(lron
          would capture only claims that
          This would allow WellPoint Plans to catJtuJ•e




          OIGReply: 

          As patt of the audit resolution process, we recommend that WellPoint provide OPM's 

          HIO with evidence that system modifications have been made to n•·"
'"'""'~
          claims from being processed. 


G. Health Insurance Portability and Accountability Act
  We reviewed WellPoint 's eff01ts to maintain compliance with the security and privacy standards
  of HIPAA.

  WellPoint has implemented a series of IT security policies and procedures to adequately address
  th e requirements of the HIPAA security mle. WellPoint has also developed a series of privacy
  policies and procedures that directly addresses all requirements of the HIP AA privacy mle.
  WellPoint reviews its HIPAA privacy and security policies annually and updates when
  necessaty. WellPoint' s Privacy Office oversees all HIPAA activities, and helps develop,


                                                  15 

publish, and maintain corporate policies. Each year, all employees must complete compliance
training which encompasses HIPAA regulations as well as general compliance.

Nothing came to our attention to indicate that WellPoint is not in compliance with the various
requirements of HIPAA regulations.




                                               16
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                  , Deputy Assistant Inspector General for Audits
•                      , Senior Team Leader
•                         , Auditor-In-Charge
•               , Lead IT Auditor
•                    , IT Auditor
•                            , IT Auditor




                                              17
                                   Appendix




                                                                  Federal Employee Program
                                                                  1310 G Street, N.W.
June 14, 2013                                                     Washington, D.C. 20005
                                                                  202.942.1000
                                                                  Fax 202.942.1125



               , Lead
Information Systems Audits Group
Insurance Service Programs
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington, D.C. 20415

Reference:	 OPM DRAFT EDP AUDIT REPORT
            WellPoint BlueCross BlueShield Plans
            Audit Report Number 1A-10-00-13-012
            Report Dated April 10, 2013 and Received April 10, 2013

Dear            :

This report is in response to the above-referenced U.S. Office of Personnel
Management (OPM) Draft Audit Report covering the Federal Employees Health
Benefits Program (FEHBP) Audit of Information Systems General and Application
Controls for the Plan’s interface with the FEP claims processing system, access, and
security controls. Our comments regarding the recommendations in this report are as
follows:

A. Access Controls

1. Privileged User Monitoring
   Recommendation 1

   The OIG Auditors recommend that WellPoint implement a process to routinely
   review elevated user (administrator) activity.

   Response to Recommendation 1

   The Plan stated that Management is in the process of implementing an automated
   monitoring program for privileged user access. The workflow process includes:

   •	 Automated 24X7 protected logging of ‘events of interest’ for the WellPoint
      mainframe, Unix and Intel environments;
                , Lead
June 14, 2013
Page 2


   •	 Monitoring of WellPoint’s environment to audit and validate events that are
      triggered by HIPAA-compliant auditing and logging (monitoring) criteria;


   •	 Integrating and leveraging of IBM’s Security Intelligence portfolio, QRadar,
      within the e-SIEM workflow, and WellPoint’s change management system; and


   •	 Implementation of the monitoring tools will be implemented by year-end 2013,
      with auditing and validation processes fully implemented by
      September 30, 2014.

2. 	 Segregation of Duties

   Recommendation 2

   The OIG Auditors recommend that WellPoint implement a process for ensuring
   Streamline application access is granted with proper segregation of duties.


   Response to Recommendation 2

   The Plan stated that job titles are utilized for granting security for associates. The
   three Attachments (Rec 2 Attachment A; Rec 2 Attachment B; and Rec 2
   Streamline Security should this be Attachment C) include the matrix and
   procedures for granting security access that demonstrates the changes made to
   enhance this process.

3. Facility Physical Access Controls- Greg Wurm/ Data Center
   .
   Recommendation 3

   The OIG Auditors recommend that WellPoint reassess the physical access
   controls at its Roanoke, Virginia facility, and implement controls that will ensure
   proper physical security. At a minimum, WellPoint should add an alarm to the
   facility entrances that will detect a door left propped open.
   .
   Response to Recommendation 3

   The Plan stated that the facility currently has an access control system in place
   that alerts security officers when a door is being held open. This system and
   functionality has been in place for several years.
                , Lead
June 14, 2013
Page 3


    The facility is undergoing a security upgrade and will have a new system that will
    not only alert the onsite security officers of a door held open, but will also notify
    corporate security officers at the security command center located in the corporate
    headquarters building. This installation will be completed by June 30, 2013. Upon
    completion of the system upgrade, the site will meet the risk and threat based
    standards developed for all sites across the enterprise.
     .
B. 	Network Security  


1. Detection of Rogue Devices

   Recommendation 4

   The OIG Auditors recommend that WellPoint implement technical controls to
   prevent rogue devices from connecting to its network.

   Response to Recommendation 4

   The Plan stated that Management believes that the associated risk is adequately
   mitigated based upon the following controls:

   	 Authentication is required for all applications on our network.

   	 Direct wireless connectivity to the WellPoint network is prohibited.

   	 Policies:

          o	 Require training for all users, including annual employee certification.
          o	 State who is/isn't authorized to physically be on WellPoint premises to
             help protect both physical PHI (such as printed materials) and electronic
             PHI. Also, devices that can/can’t be connected to the WellPoint network
             are defined.
          o	 State that a visitor must be escorted throughout the facility. Visitors
             coming to our buildings are escorted while on the premises and
             WellPoint associates are responsible for monitoring the activities of their
             visitors.

   	 Controls are in place to enforce the physical security of our buildings, including
      guards, badge readers, cameras, etc. to help prevent unauthorized individuals
      from connecting rogue or unauthorized devices to the WellPoint network.
                , Lead
June 14, 2013
Page 4



   	 See physical access changes being implemented for the Roanoke, Virginia
      building (Recommendation #3 response).

   WellPoint’s focus is on protecting the data. As outlined in the mitigating controls
   above, along with our robust security event monitoring and network security
   program, we believe that the risk has been adequately addressed. We continually
   monitor security exposures and have built layers of defense to protect data, and
   will continue to implement programs that have been proven effective.

2. Vulnerability Scanning

   Recommendation 5

   The OIG Auditors recommend that WellPoint ensure that vulnerability scanning is
   conducted on all servers, specifically the servers housing Federal data that are not
   currently part of WellPoint’s vulnerability management program.
   .
   Response to Recommendation 5

   The Plan stated that the only devices identified during the review that were not
   being scanned were desktop devices that:

   •	 Do not contain FEP data, and are only used for additional computing power for
      tasks that are generally performed on user desktops.

   •	 The Desktop Devices are being retired within the next 60 days. The Plan
      believes that it has demonstrated that it scans all servers that contain FEP data.
      WellPoint Information Security has processes in place to help ensure that newly
      provisioned servers are scanned and certified prior to production use, and are added
      to the scanning inventory that is used for conducting our periodic vulnerability scans.
      The Plan will continue to work to help ensure that our scanning inventory is kept up-to-
      date and reflects the latest WellPoint server inventory.

3. 	Configuration Compliance Auditing

   Recommendation 6

   The OIG Auditors recommend that WellPoint implement a configuration 

   compliance auditing program. 

                , Lead
June 14, 2013
Page 5


   Response to Recommendation 6

   The Plan stated that its’ Vulnerability Management Program includes ongoing
   patching. Security patches for high severity vulnerabilities are applied within 90
   days on DMZ servers and 180 days on internal servers. For the configuration
   management compliance program, WellPoint is finalizing its transition to the Tivoli
   Endpoint Manager (TEM) tool from the Blade Logic tool. The tool transition is
   scheduled to be complete by June 30, 2013, with the configuration management
   compliance program targeted to be fully operational by October 31, 2013 for
   midrange and Intel servers.

   The Plan’s contract with its outsource IT partner requires ongoing compliance to
   WellPoint’s technical configuration standards (TCS). Variances to a TCS
   parameter require a security exception to be formally approved. Governance over
   this outsourced arrangement is provided through WellPoint’s configuration
   management compliance program.

C. Configuration Management


   Recommendation 7

   The OIG Auditors recommend that WellPoint modify its mainframe password
   settings to comply with its corporate policy.

   Response to Recommendation 7

   The Plan stated that when Technical Configuration Standards (TCS) parameters
   are updated, a transition timeline is defined to comply with new or modified
   parameters for each LPAR. The audit team reviewed ACF TCS version 1.0 which
   reflected recent password setting updates to comply with HITRUST requirements,
   which the audit team noted as compliance gaps. Since the completion of the audit,
   the WellPoint security team has updated and published ACF TCS version 2.0.

   As of April 26, 2013, the password settings have been updated to comply with ACF
   TCS version 2.0, which was published on April 23, 2013. Procedures for the
   review process were documented. See attachments Rec 7 IS-TCS-009 ACF2v2.0
   and Rec 7 VA ACF2 Mainframe Co provide details of the changes made.
                , Lead
June 14, 2013
Page 6


Claims Adjudication

1. Debarment

   Recommendation 8

   The OIG Auditors recommend that WellPoint implement a process to routinely
   audit the provider file to ensure that all debarment related modifications are
   complete and accurate.

   Response to Recommendation 8
   The Plan stated that based on the recommendation a new audit process was
   implemented effective June 1, 2013 to review the Debarred Provider Listings to
   ensure all debarment related modifications to the Provider Files are complete and
   accurate. Procedures for the review process were documented. See embedded
   attachment entitled Rec 8 Debarred Provider Audit.

2. Provider/Procedure Inconsistency

   Recommendation 9

   The OIG Auditors recommend that WellPoint ensure the appropriate system 

   modifications are made to detect provider/procedure inconsistencies 



   Response to Recommendation 9

   The Plan stated that it made a request to pend claims with the specific instance
   identified in the audit and this change should be complete within 60 days. We have
   also requested from the FEP Director’s Office a listing of providers and the
   specialties that are considered ’outside of their license. ) A request to pend claims
   with specific criteria) will be set up to stop each situation that is identified. The
   request for this wider net will be dependent upon the identification of providers and
   specialties. Once identified, the necessary changes will be added to the system
   within 60 days.
                       Lead




3.

     Recommendation 10

     The OIG A uditors recommend that Well Point ensure that the appropriate system
     mod ifications are made to prevent             claims from processing w ithout
     proper verification.

     Response to Recommendation 10

     The Plan stated that it has requested that Washin
     w ould capture on ly claims that are
     This w ould allow Well Point Plans to
     automation would then be created to
      rov ide a denial reason simi lar to "



     We appreciate the opportu nity to provide our response to th is Draft Aud it Report and
     req uest that our comme nts be incl uded in their entirety as an amendment to the Final
     Aud it Report.

     Sincerely,




     -                 . CPA
     ~ager, Govern ment Audit Resolution and Coord ination
     Program Assurance


     -
     Attachments (6)
     cc:                      WeiiPoint BCBS
                                      , WeiiPoint BCBS
                                       s
